               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




        Contract Postal Units Contract
                  Oversight
                 Audit Report




                                         September 30, 2011

Report Number CA-AR-11-007
                                                                     September 30, 2011

                                              Contract Postal Units Contract Oversight

                                                          Report Number CA-AR-11-007




IMPACT ON:
The audit will impact oversight of             contracts to include clauses identifying
Contract Postal Units (CPUs)                   the submission of revenue data as an
nationwide.                                    official invoice from the contractor and
                                               create a process that ensures the CO or
WHY THE OIG DID THE AUDIT:                     COR validate and certify invoices prior
Our audit objective was to evaluate            to payment. In addition, we
U.S. Postal Service oversight of CPU           recommended mandatory training to
contracts, primarily oversight provided        ensure all CORs receive training within
by the contracting officer (CO) in             2 weeks of notification of appointment;
assigning and overseeing contracting           and development of an oversight
officer’s representative (COR) duties.         mechanism to monitor whether CORs
Our audit focused on how the CO                conduct quarterly performance and
ensures that CORs are validating and           annual financial reviews, obtain
certifying payments for CPU services.          completed appointment letters, and
                                               retain contracts in the administrative
WHAT THE OIG FOUND:                            files.
The Postal Service must improve
oversight of CPU contracts to ensure it        WHAT MANAGEMENT SAID:
is billed appropriately and services are       Management disagreed with the
received in accordance with contract           recommendations to require and certify
terms. Specifically, Postal Service            invoices and the associated monetary
contracting officials did not certify about    impact. Management agreed to the
$163 million in payments to CPUs               recommendations regarding providing
during fiscal years 2009 and 2010. In          training and oversight.
addition, CORs did not perform all
assigned duties and responsibilities as        AUDITORS’ COMMENTS:
required based on contract                     The OIG will work with the Postal
administrative files reviewed. Finally,        Service through the resolution process
CORs did not always perform financial          regarding the recommendations on
audits of CPUs as required.                    requiring and certifying invoices.

WHAT THE OIG RECOMMENDED:                      Link to review the entire report
We recommended the vice president,
Supply Management, modify CPU
September 30, 2011

MEMORANDUM FOR:            SUSAN M. BROWNELL
                           VICE PRESIDENT, SUPPLY MANAGEMENT

                                 E-Signed by Mark Duda
                              VERIFY authenticity with e-Sign




FROM:                      Mark W. Duda
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Draft Audit Report – Contract Postal Units Contract
                           Oversight (Report Number CA-AR-11-007)

This report presents the results of our audit of the Contract Postal Units Contract
Oversight (Project Number 11YG015CA000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judith Leonhardt, director,
Supply Management, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    David C. Fields
    Jordan M. Small
    JoAnn Feindt
    Steven J. Forte
    Drew Aliperto
    Linda Welch
    Sylvester Black
    Kelly M. Sigmon
    Brian B. Code
    Dennis W. Kelly
    Deborah Giannoni-Jackson
    Robert D’Orso
    Susan A. Witt
    Corporate Audit and Response Management
                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Invoice Certification ......................................................................................................... 1

Assigned Duties and Responsibilities.............................................................................. 3

Annual Financial Audits ................................................................................................... 5

Recommendations .......................................................................................................... 6

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 7

Appendix A: Additional Information ................................................................................. 9

   Background ................................................................................................................. 9

   Objective, Scope, and Methodology ............................................................................ 9

   Prior Audit Coverage ................................................................................................. 11

Appendix B: Monetary Impact ....................................................................................... 13

Appendix C: Summary of Duties not Performed by COR .............................................. 14

Appendix D: Management’s Comments ........................................................................ 15
Contract Postal Units Contract Oversight                                        CA-AR-11-007




Introduction

This report presents the results of our audit of Contract Postal Units’ (CPU) contract
oversight (Project Number 11YG015CA000). Our audit objective was to evaluate
U.S. Postal Service oversight of CPU contracts, primarily the oversight provided by the
contracting officer (CO) in assigning and overseeing contracting officer’s representative
(COR) duties. Our focus was on how the CO ensures that CORs are appropriately
validating and certifying payments for CPU services. This self-initiated audit addresses
operational risk. See Appendix A for additional information about this audit.

A CPU is a supplier-owned or supplier-leased facility (operated by the supplier) under
contract to the Postal Service to provide postal services to the public. Currently, there
are 4,665 CPUs across the U.S. The Postal Service electronically paid about $163
million to CPUs from October 1, 2008, to September 30, 2010.

The CO is responsible for ensuring the Postal Service has received goods and services
and invoices are correct before payment. Validation and certification of invoices
performed by the CO prior to payment is standard practice within the federal
government. Postal Service policy allows the CO to delegate this role to a COR.
However, the CO maintains responsibility to ensure critical reviews of invoices are
performed before payment.

Conclusion

The Postal Service must improve oversight of CPU contracts to ensure it is billed
appropriately and services are received in accordance with contract terms. Specifically,
Postal Service contracting officials did not certify any of the about $163 million in
payments to CPUs during fiscal years (FYs) 2009 and 2010. In addition, CORs did not
perform all assigned duties and responsibilities as required based on contract
administrative files reviewed. Finally, CORs did not always perform financial audits of
CPUs as required. The proper review and certification of contract payments and
appropriate oversight of these contracts is critical, particularly when the Postal Service
is moving to a village post office concept that will expand the use of CPUs.

Invoice Certification

Postal Service contracting officials did not certify about $163 million in payments made
to CPUs during FYs 2009 and 2010 as shown in Table 1. The Postal Service paid CPUs
automatically every month without a CO or COR certifying the invoices. The CO stated
that invoices are not validated or certified prior to payment.




                                             1
Contract Postal Units Contract Oversight                                                           CA-AR-11-007




                               Table 1: Summary of CPU Payments
                            Fiscal Year             CPU Payments
                               2009                   $81,999,971
                               2010                    80,687,771
                               Total                 $162,687,742
                 Source: CPUT system

The Postal Service does not require the contractor to submit an invoice, but relies on a
system called Contract Postal Unit Technology 1 (CPUT) to generate invoices based on
sales transactions. CPU contractors with performance based contracts are paid based
on sales volume. However, CPU contractors with fixed price contracts are automatically
paid a flat monthly fee. The CO or COR were not required to review or sign the CPUT-
generated invoices prior to payment. The CPU program manager stated that the prior
system2 required the CO to manually certify invoices prior to payment. The Postal
Service determined that it could achieve greater efficiency by automating the CPU
process by eliminating the certification and validation of invoices in the new system. The
program manager further stated that they rely on CPUT for the accuracy of payments;
therefore, no certification is necessary.

Postal Service policies and procedures require contracting officials to validate and
certify invoices prior to payment 3. This is a critical control to ensure payment is made
only for services rendered. In addition, CPU contracts require compliance with the
Prompt Payment Act 4 and contain language that invoices should be certified prior to
payment.

Other institutions that developed an automated system similar to CPUT for processing
invoices included a method for the CO or delegated official to validate and certify
invoices prior to payment. For example, the state of Idaho has an automated invoice
payment process that allows the CO or designated official to validate and certify
invoices prior to electronic payment. The Idaho system allows approval of one or more
invoices at the same time. In addition, the Defense Financial Accounting Service has a
system that receives invoices electronically and the CO validates and certifies invoices
electronically prior to payment.

Since CPU contractors do not submit invoices and CPUT automatically generates
invoices, there is a risk that the Postal Service could pay a contractor after a contract is
closed or before services are rendered. One contractor continued to receive $12,833 in
payments from March 2010 to March 2011, 1 year after the contract ended. This
1
  CPUT, which became effective in FY 2003, is a web-based application which captures and transmits accounting
data from retailer and supplier CPU locations.
2
  The prior system was called Contract Partner’s Payment System.
3
  Management Instruction (MI) 610-2000-2, dated March 7, 2000, requires invoices to be reviewed, dated, and signed
by an approving official prior to payment. Supplying Principles & Practices, Process Step 5-11 and 5-12, Measure
and Manage Supply, Make Payment Task, states that an invoice amount must be verified and approved before
payment. The CO, in conjunction with Finance, must ensure that all payments are made once a legitimate invoice has
been processed.
4
  Prompt Payment Act: 31 USC 3903 and CFR 1315.

                                                        2
Contract Postal Units Contract Oversight                                                             CA-AR-11-007



occurred because the Postal Service continued to make fixed fee monthly payments
after the contractor ceased operations. District officials recovered these payments.
Payments to CPUs after contract termination represent a significant internal control
weakness. Also, payments made to terminated contracts can occur because the CO or
COR does not validate invoices generated in CPUT. If the CO or COR validated and
certified invoices prior to payment, the Postal Service could avoid paying CPUs when
the contract has been terminated. There is also a risk of making improper payments
when contracts are modified or when all services contracted for have not been received.

We consider $162,687,742 in payments that occurred during FYs 2009 and 2010 as
unsupported questioned costs due to significant internal controls not properly applied to
the certification of automated payments to CPUs 5. See Appendix B.

Assigned Duties and Responsibilities

CORs did not perform all appointed duties and responsibilities for CPUs as required6.
Of the 188 randomly selected FYs 2009 and 2010 contract administrative files reviewed,
176 (or 94 percent) of the files contained discrepancies7. See Appendix C for more
details by Postal Service area of operation. Seventy-one percent of the files contained
two or more discrepancies, as shown in Table 2.

           Table 2. Contract Administrative Files with Discrepancies
                             Number of Files with             Cumulative
Number of Discrepancies Number of Discrepancies               Percentage
           0                          12                         100%
           1                          43                          94%
           2                          74                          71%
           3                          38                          58%
           4                          17                          11%
           5                           4                          2%
Total                                188

Specifically, the CO and CORs did not perform all assigned duties and responsibilities
as required based on contract administrative files reviewed. The CO did not consistently
sign appointment letters. CORs did not properly complete their titles and sign the letters.
Some CORs did not conduct all quarterly reviews and, in addition, Postal Service
employees other than the COR completed and signed quarterly review forms. Further,
CORs did not retain copies of the contract or appointment letters in administrative files.

   Incomplete COR Letters: Of the 176 files with discrepancies, 144 had incomplete
    appointment letters. The CO did not sign 127 of those 144 (or about 89 percent).
5
  These costs are questioned because they are not supported by adequate documentation or because employees did
not follow required procedures. The use of the category “unsupported questioned costs” does not necessarily indicate
actual loss the Postal Service incurred.
6
  Publication 156, Postal Service Employees Guide to Contract Postal Units.
7
  We projected that 4,464 (or 96 percent) of all Postal Service CORs overseeing CPUs did not perform all of their
duties and responsibilities.

                                                         3
Contract Postal Units Contract Oversight                                           CA-AR-11-007



       Some CORs stated that they received instructions from the CO to return their letter
       with their signature and they did not receive a letter with the CO signature. The
       Denver Category Management Center issued instructions in April 2011 that all
       letters issued after June 2009 must contain a CO and COR signature. Of the
       remaining 17 letters, the COR’s title was not properly completed or the COR did not
       sign the form.

      Quarterly Reviews Done by Others: Postal Service employees other than the
       COR completed and signed quarterly review forms for 88 of the 176 files. The COR
       must sign the quarterly review form and cannot delegate this responsibility to
       another employee. Some CORs were new to their position and unaware they should
       not re-delegate their responsibilities.

      Quarterly Reviews Not Done: The CORs did not conduct all quarterly reviews for
       101 of the 176 files that contained discrepancies. Effective FY 2010, CORs were
       required to document quarterly reviews on a standard form, Contract Postal Unit
       Quarterly Performance Review 8.Quarterly performance reviews are a tool to assist
       the COR in determining whether the contractor is providing quality performance and
       improving the business relationship. Some CORs interviewed stated they were not
       aware of their responsibility to conduct the reviews.

      No Copy of Contract: CORs did not retain a copy of the contract in 19 of the 176
       files. CORs are required to maintain a copy of the contract in the administrative file
       but stated they had never seen a contract and/or were not aware that they should
       have a copy.

      No COR Letter: CORs did not retain appointment letters in 23 of the 176 files. When
       contracts are awarded, the CO appoints a COR through a formal letter of
       designation which defines the COR’s duties and sets the limits of COR authority.
       The COR is required to maintain the original appointment letter in the administrative
       file. A partnership between the CO and the COR is essential to establishing and
       achieving the objectives of the contract. The CORs interviewed stated that they
       never received an appointment letter.

CORs did not perform their assigned duties because the CO and the CPU program
officials did not train CORs regarding their specific responsibilities to administer CPU
contracts. Postal Service Supply Management offers an online COR course to all
CORs; however, it is not designed to specifically address the contract administration of
CPUs. Accordingly, the Postal Service CPU program did not offer specific training to
CORs. The CO acknowledged that CORs had not received specialized training. The
CORs should have received training within 2 weeks of appointment notification. Based
on our audit, in April 2011, the CO began training CORs specifically addressing the
administration of CPUs as outlined in Publication 156, Postal Service Employees Guide
to Contract Postal Units. However, attendance was not mandatory and there was not


8
    Publication 156, Section 10-3.1.

                                                4
Contract Postal Units Contract Oversight                                                             CA-AR-11-007



full participation. CORs have multiple job responsibilities and may not have considered
the training as a requirement.

In addition, the CO stated she did not provide oversight of the CORs because she
doesn’t have enough time to oversee more than 4,000 of them. The CO did not review
the CORs’ contract administrative files to determine whether the CORs performed
reviews and maintained all required documents. The Postal Service requires CORs to
maintain a contract administrative file containing records including quarterly reviews for
at least 3 years after CPU contract termination 9. The CO has an inherent responsibility
to oversee the duties delegated to the COR. Good business practices dictate that this
oversight be performed at a level that ensures these responsibilities are performed in
accordance with policies and procedures.

The CPU is an extension of the Postal Service to the community. In order for the CPU
program to be effective, it is critical for the COR to perform his/her duties and
responsibilities. When CORs do not perform their assigned duties, the Postal Service
may not know how the CPU is operating or whether the contractor is adhering to the
contract. This could negatively impact the business relationship between the Postal
Service and the CPU. The effectiveness of CPU oversight is becoming more critical to
the Postal Service as it moves to the village post office concept and the expanded use
of CPUs .

Further, we performed a judgmental review of quarterly reviews to determine whether
CORs performed the required follow-up to previously cited issues at CPUs. Of the 60
CPU quarterly reviews we judgmentally selected, CORs addressed issues that were
cited in the reviews.

Annual Financial Audits

CORs did not retain financial audit documentation for 53 of 130 10CPU administrative
files for FYs 2009 and 2010. The CORs were unaware of this requirement. When CORs
do not conduct financial audits11 there is an increased risk of loss of cash, stamps, or
other accountable items.

The Postal Service requires that CORs maintain financial reviews in the contract
administrative files for at least 3 years after CPU contract termination12. Some CORs we
interviewed were not aware of the requirement to conduct financial reviews and to retain
copies of the reviews in the administrative files. COs did not perform random reviews of
CORs’ contract administrative files to determine whether they performed reviews and
maintained all required documents. The CO stated that she did not provide oversight
because there are over 4,000 CORs.

9
   Publication 156, Section 7-3.3.3.
10
    We statistically selected another sample of administrative files from a universe of fixed-priced and non-
Contract Access Retail System performance contracts. We projected that about 848 of 3,129 CPU administrative
      10
files did not contain a financial audit
11
    Financial audits are conducted once a year and include a stamp stock count and a review of the bond amount.
12
    Publication 156, Section 7-3.3.3.

                                                         5
Contract Postal Units Contract Oversight                                       CA-AR-11-007




Recommendations

We recommend the vice president, Supply Management:

1. Require CPU contractors to submit invoices for payment.

2. Create a process to ensure the contracting officer or contracting officer’s
   representative validates and certifies invoices prior to payment, using data
   maintained in the Contract Postal Unit Technology system.

3. Establish a mandatory training procedure to ensure all contract officer
   representatives receive training of appointed duties within 2 weeks of notification of
   the contracting officer’s representative appointment.

4. Develop an oversight mechanism to monitor whether contracting officer’s
   representatives conduct quarterly performance and annual financial reviews,
   obtained completed appointment letters, and retain contract postal unit contracts in
   the contract administrative files.

Management’s Comments

Management agreed with recommendations 3 and 4 and disagreed with
recommendations 1 and 2 and the monetary impact. Overall, management stated that
the CPU program manager reviews and provides approval for CPU payment requests
prior to submission to the accounting service center. Management stated that the OIG
incorrectly cited policies in Management Instruction 610-2000-2 (MI) and the Supplying
Principles and Practices (SP&Ps). The MI and SP&Ps do not require supplier invoice
submission for all contracts. Further, the Postal Service has established Sarbanes-
Oxley (SOX) controls around the supplier sales reporting and payment process for
CPUs. In addition, management stated that the September 22, 2009, instructional letter
from Timothy Healy to the area vice presidents permits greater flexibility in
accomplishing Quarterly Performance Reviews by permitting the CORs (or designee) to
conduct the review.

Management specifically responded to recommendation 1 that the submission of
revenue data cannot serve as a supplier’s invoice as the OIG suggested. Revenue
(sales) data is not the amount of payment that is due the supplier for services rendered.
In regards to recommendation 2, management stated that the program manager
reviews the validation log and the supporting documentation for completeness. Then,
the program manager approves the payment record for payment. See Appendix C for
management’s comments, in their entirety.




                                            6
Contract Postal Units Contract Oversight                                        CA-AR-11-007




Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendations 3 and 4
in this report and corrective actions should resolve these issues. Management
disagreed with recommendations 1 and 2 to modify CPU contracts to include clauses
identifying the submission of revenue data as an official invoice from the contractor and
create a process to ensure the contracting officials validate and certify invoices prior to
payment.

At our exit conference, management alluded that the contractor’s submission of
financial data into the CPUT system would be an acceptable alternative to our original
recommendation 1 requiring contractors to submit invoices. CPUT data generate a
calculation of payment due to a supplier based on financial data the supplier inputs. As
such, recognition of the input of that data as an invoice by both the supplier and Supply
Management through a contract modification would allow the course of action
suggested with our draft report recommendation. However, it appears that management
is no longer comfortable with that solution. Therefore, we have reverted to our initial
recommendation to require contractors for CPUs to submit monthly invoices as a claim
for payment for services provided, preferably electronically.

Management stated that the OIG incorrectly cited policies from the aforementioned MI
and SP&Ps, which do not require supplier invoice submission for all contracts. The MI
and SP&P’s expect the submission of an invoice to be a general rule, but do provide for
some specific exceptions. CPU contracts are not specifically excluded from the invoice
submittal requirement.

Management stated that SOX controls were established around the supplier sales
reporting and payment process for CPUs; however, the SOX controls are not a
substitute for the CO’s responsibility to certify invoices.

In regard to management’s disagreement with recommendation 2, the CO or the COR
are the only officials authorized to validate and certify invoices. The referenced program
manager does not have the authority to validate and certify invoices. Invoice validation
and certification should be performed by the authorized CO or COR prior to payment.

Management mentioned an instructional letter submitted by Timothy Healy when he
was the vice president of Retail Product and Services, permitting CORs or designees to
conduct quarterly performance reviews. CORs cannot delegate their performance
review responsibilities. Only the CO has authority to designate a COR and assign their
responsibilities. Recent CO training instruction provided to CORs specifically stated that
CORs cannot delegate these responsibilities.

Also, management stated that we erroneously included closed CPUs in our count of
4,665 active CPUs nationwide. During FYs 2009 and 2010 there were approximately
4,665 CPUs that existed. We included those that were terminated but received


                                             7
Contract Postal Units Contract Oversight                                 CA-AR-11-007



payments during FYs 2009 and 2010. Since the number of active CPUs is a revolving
one, we changed the wording in the background section (page 9) to state there are
approximately 4,000 CPUs.

The OIG will work with the Postal Service through the resolution process regarding
recommendations 1 and 2. The OIG considers all the recommendations significant, and,
therefore requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when corrective actions are completed. These recommendations
should not be closed in the Postal Service’s follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed.




                                           8
Contract Postal Units Contract Oversight                                                              CA-AR-11-007



                                 Appendix A: Additional Information

Background

A CPU is a supplier-owned or supplier-leased facility (operated by the supplier) under
contract to the Postal Service to provide postal services to the public. Currently, there
are about 4,665 CPUs across the U.S. CPUs are typically located in retail
establishments under contract to the Postal Service and staffed by the retailer’s
employees. The Postal Service has used CPUs to provide additional access to Postal
Service products and services for over 100 years. CPUs offer the general public
alternate access to Postal Service products after normal business hours. The objective
of the CPU program is to reduce customer wait time in Post Offices, retain and increase
Postal Service market share, reduce operational costs, and improve the customer
satisfaction and retail revenue growth. The Postal Service considers CPUs to be one of
the lowest cost-to-serve programs.

The sole CO, who reports to the Postal Service Supply Management Travel, Retail, and
Temporary Service Category Management Center, is responsible for ensuring the
Postal Service has received goods and services and that invoice amounts are correct.
The Postal Service allows the CO to delegate the role to a COR. The COR is normally
the postmaster at a Post Office near the CPU and they perform duties and
responsibilities as assigned through the CO appointment letter. During 2009 and 2010,
there were approximately 4,000 CORs for the CPUs. The CO is required to validate and
certify the invoice prior to payment 13. The CO may delegate the responsibility for
certifying invoices to the COR, but the CO retains primary oversight responsibility for
ensuring that duty is adequately fulfilled.

The CPU does not submit an invoice; instead, it submits monthly sales data the Postal
Service uses to determine payment 14 to the CPU. CPUT creates an invoice for each
CPU submitted to Postal Service accounts payable for payment because the accounts
payable system will not make payments without an invoice. The CPU CO does not
receive or review any invoice prior payment.

Objective, Scope, and Methodology

Our audit objective was to evaluate Postal Service oversight of CPU contracts; primarily
the oversight the CO provides in assigning and overseeing COR duties. Our audit
focused on how the CO ensures that CORs are validating and certifying payments for
CPU services. To accomplish our objective, we:

    Reviewed Postal Service policies and procedures pertaining to certifying and
     validating invoices.
13
   MI 610-2000-2, dated March 7, 2000, requires invoices to be reviewed, dated, and signed by the approving official
prior to payment. Supplying Principles & Practices, Process Steps 5-11 and 5-12, Measure and Manage Supply,
Make Payment Task, states that an invoice amount must be verified and approved before payment.
14
   CPU Firm-fixed-priced contracts are paid fixed amounts monthly. Performance-based CPU contracts are paid
based on a percentage of sales.

                                                          9
Contract Postal Units Contract Oversight                                          CA-AR-11-007




       Obtained the Postal Service’s universe of CPUs and total payments for FYs 2009
        and 2010.

       Developed statistical sampling techniques used to select CPUs to determine
        whether CORs are validating and certifying invoices prior to payment and are
        performing required oversight of CPUs by reviewing contract files15 .

       Provided selected Postal Service CORs overseeing CPUs with a
        questionnaire on whether they are validating and certifying invoices prior to
        payment and other related questions. In addition, we requested CORs to
        provide information contained in contract files.

       Judgmentally selected quarterly reviews to determine whether CORs were provided
        follow-up actions to correct previously recorded issues.

       Interviewed Postal Service Headquarters officials, the Category Management
        Center manager, and COs to discuss the key controls over maintaining complete
        COR administrative files and gain an understanding of why the CO does not
        validate and certify invoices prior to payment.

We conducted this performance audit from January through September 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on September 7, 2011, and
included their comments where appropriate.

We assessed the reliability of CPUT’s CPU contract and financial data by judgmentally
sampling CPU payments to determine whether payments in the CPUT system represent
actual payment by checking payments against accounts payable records. We detected
no discrepancies and determined the data were sufficiently reliable for the purposes of
this report.




15
     CORs are required to maintain contract files on each CPU.

                                                          10
     Contract Postal Units Contract Oversight                                             CA-AR-11-007



     Prior Audit Coverage

                                           Final
                       Report             Report       Monetary
 Report Title          Number              Date         Impact               Report Results
Information        CA-AR-11-001         11/23/2010    $192,692,060    Postal Service officials must
Technology:                                                           improve oversight of
Contract                                                              Information Technology
Payment                                                               contract payments to ensure
Oversight                                                             invoices are certified by
                                                                      designated COs or CORs and
                                                                      that COs and CORs reconcile
                                                                      invoices to receiving
                                                                      documents prior to certification.
                                                                      COR letters were not issued to
                                                                      proper personnel.
                                                                      Management agreed to ensure
                                                                      that proper personnel have a
                                                                      COR
                                                                      letter of designation allowing
                                                                      them to certify invoices for
                                                                      payment.
Certification      CA-AR-10-006         9/30/2010    $5,600,000,000   Postal Service designated
Process for                                                           officials were not properly
Electronic                                                            trained and the CO or COR did
Payments                                                              not ensure the contractor had
                                                                      accurate contact information
                                                                      and the CO or COR could not
                                                                      ensure that forwarded utility
                                                                      invoices were received and
                                                                      reviewed for accuracy prior to
                                                                      payment. Management agreed
                                                                      with the recommendation to
                                                                      provide COR training.




                                                     11
     Contract Postal Units Contract Oversight                               CA-AR-11-007



Aviation           SA-AR-09-005         7/7/2009   None   Postal Service CORs did not
Security                                                  notify COs when transitioning
Program at                                                their duties to new CORs. As a
Contract Postal                                           result, COs did not prepare
Units                                                     letters of appointment to
                                                          ensure proper designation of
                                                          CORs and make them aware
                                                          of their roles and
                                                          responsibilities regarding
                                                          CPUs. Management agreed
                                                          with the finding to update COR
                                                          appointment letters to clarify
                                                          roles and responsibilities and
                                                          reissue them to CORs who
                                                          have responsibility for CPUs.




                                                   12
Contract Postal Units Contract Oversight                                                              CA-AR-11-007



                                     Appendix B: Monetary Impact



                    Finding                         Impact Category                       Amount
              Invoice Certification             Unsupported Questioned                  $162,687,742
                                                Costs 16




16
  Unsupported questioned cost is a subset of questioned costs and is claimed because of failure to follow policy or
required procedures. This does not necessarily connote any real damage to Postal Service.

                                                         13
   Contract Postal Units Contract Oversight                                       CA-AR-11-007




                    Appendix C: Summary of Duties not Performed by COR

   We found 375 issues during our review of 176 CORs administrative files. These issues
   represent where CORs did not perform quarterly reviews or allowed others to perform
   the reviews, there was no appointment letter or incomplete appointment letter, or there
   was no copy of the initial contract retained. Two hundred and forty-five, (or 65 percent)
   of the issues were incomplete COR letters and appointed CORs not performing
   quarterly reviews. See Table 3:

                         Table 3: CPU Administrative File Discrepancies
                                         Great
                        Capital Eastern Lakes Northeast Pacific Southwest Western
   Items Tested          Area      Area  Area       Area       Area     Area Area Total
COR letter not             4        11    16         12         14       32   55   144
properly completed
Appointed COR did           5           6     12        1         9          21           34     88
not conduct
quarterly reviews
COR did not                 4           9     5         13        6          21           43     101
conduct quarterly
reviews
COR did not have            3           0     0         4         1           9           2      19
contract
COR did not have            3           2     2         2         3           4           7      23
appointment letter
Total                      19          28     35        32       33          87          141     375




                                                   14
Contract Postal Units Contract Oversight                       CA-AR-11-007



                           Appendix D: Management’s Comments




                                           15
Contract Postal Units Contract Oversight        CA-AR-11-007




                                           16
Contract Postal Units Contract Oversight        CA-AR-11-007




                                           17
Contract Postal Units Contract Oversight        CA-AR-11-007




                                           18
